Audit Report




OIG-10-026
Audit of the Financial Crimes Enforcement Network’s
Fiscal Years 2009 and 2008 Financial Statements

December 22, 2009




Office of
Inspector General
Department of the Treasury
                                       DEPARTMENT OF THE TREASURY
                                             W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                              December 22, 2009


            MEMORANDUM FOR JAMES H. FREIS, JR., DIRECTOR
                            FINANCIAL CRIMES ENFORCEMENT NETWORK

            FROM:                   Michael Fitzgerald
                                    Director, Financial Audits

            SUBJECT:                Audit of the Financial Crimes Enforcement Network’s
                                    Fiscal Years 2009 and 2008 Financial Statements

            I am pleased to transmit the attached audited Financial Crimes Enforcement
            Network’s (FinCEN) financial statements for fiscal years 2009 and 2008. Under a
            contract monitored by the Office of Inspector General, KPMG LLP, an independent
            certified public accounting firm, performed an audit of the financial statements of
            FinCEN as of September 30, 2009 and 2008 and for the years then ended. The
            contract required that the audit be performed in accordance with generally
            accepted government auditing standards; applicable provisions of Office of
            Management and Budget Bulletin No. 07-04, Audit Requirements for Federal
            Financial Statements, as amended; and the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                •   Independent Auditors’ Report on Financial Statements;
                •   Independent Auditors’ Report on Internal Control Over Financial Reporting;
                    and
                •   Independent Auditors’ Report on Compliance and Other Matters.

            In its audit, KPMG LLP reported:

                •   that the financial statements were fairly presented, in all material respects, in
                    conformity with U.S. generally accepted accounting principles,

                •   no matters involving internal control and its operations that are considered
                    material weaknesses, and

                •   no instances of reportable noncompliance with laws and regulations tested.
In connection with the contract, we reviewed KPMG LLP’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit performed in accordance with generally accepted government
auditing standards, was not intended to enable us to express, and we do not
express, an opinion on the financial statements or conclusions about the
effectiveness of internal control or compliance with laws and regulations. KPMG
LLP is responsible for the attached auditors’ reports dated December 15, 2009 and
the conclusions expressed in the reports. However, our review disclosed no
instances where KPMG LLP did not comply, in all material respects, with generally
accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Ade Bankole, Manager, Financial Audits at
(202) 927-5329.

Attachment
     DEPARTMENT OF THE TREASURY
FINANCIAL CRIMES ENFORCEMENT NETWORK

           Financial Statements

           September 30, 2009
                              DEPARTMENT OF THE TREASURY
                         FINANCIAL CRIMES ENFORCEMENT NETWORK


                                     Table of Contents



                                                                Page

Independent Auditors’ Report                                       2

Management Discussion and Analysis                                 7

Financial Statements and Notes                                    17

Required Supplementary Information                                42
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                         Independent Auditors’ Report on Financial Statements


Inspector General, U.S. Department of the Treasury and
Director, Financial Crimes Enforcement Network:


We have audited the accompanying balance sheets of the U.S. Department of the Treasury – Financial
Crimes Enforcement Network (FinCEN) as of September 30, 2009 and 2008, and the related statements of
net cost, changes in net position, budgetary resources and custodial activity (hereinafter referred to as
“financial statements”) for the years then ended. These financial statements are the responsibility of
FinCEN’s management. Our responsibility is to express an opinion on these financial statements based on
our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of FinCEN’s internal
control over financial reporting. Accordingly, we express no such opinion. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial statements,
assessing the accounting principles used and significant estimates made by management, as well as
evaluating the overall financial statement presentation. We believe that our audits provide a reasonable
basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the U.S. Department of the Treasury – Financial Crimes Enforcement Network as of
September 30, 2009 and 2008, and its net costs, changes in net position, budgetary resources, and custodial
activity for the years then ended in conformity with U.S. generally accepted accounting principles.

The information in the Management Discussion and Analysis and Required Supplementary Information
sections is not a required part of the financial statements, but is supplementary information required by
U.S. generally accepted accounting principles and OMB Circular A-136, Financial Reporting
Requirements. We have applied certain limited procedures, which consisted principally of inquiries of
management regarding the methods of measurement and presentation of this information. However, we did
not audit this information and, accordingly, we express no opinion on it.

In accordance with Government Auditing Standards, we have also issued our reports dated December 15,
2009, on our consideration of FinCEN’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts and other matters. The purpose of those
reports is to describe the scope of our testing of internal control over financial reporting and compliance
and the results of that testing, and not to provide an opinion on the internal control over financial reporting

                                                                          2
                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
or on compliance. Those reports are an integral part of an audit performed in accordance with Government
Auditing Standards and should be read in conjunction with this report in assessing the results of our audits.




December 15, 2009




                                                     3
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




            Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General, U.S. Department of the Treasury and
Director, Financial Crimes Enforcement Network:


We have audited balance sheets of the U.S. Department of the Treasury – Financial Crimes Enforcement
Network (FinCEN) as of September 30, 2009 and 2008 and the related statements of net cost, changes in
net position, budgetary resources and custodial activity (hereinafter referred to as “financial statements”)
for the years then ended, and have issued our report thereon dated December 15, 2009.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement.

The management of FinCEN is responsible for establishing and maintaining effective internal control. In
planning and performing our fiscal year 2009 audit, we considered FinCEN’s internal control over financial
reporting by obtaining an understanding of the design effectiveness of FinCEN’s internal control,
determining whether internal controls had been placed in operation, assessing control risk, and performing
tests of controls as a basis for designing our auditing procedures for the purpose of expressing our opinion
on the financial statements. To achieve this purpose, we did not test all internal controls relevant to
operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982. The
objective of our audit was not to express an opinion on the effectiveness of FinCEN’s internal control over
financial reporting. Accordingly, we do not express an opinion on the effectiveness of FinCEN’s internal
control over financial reporting.

Our consideration of internal control over financial reporting was for the limited purpose described in the
preceding paragraph and was not designed to identify all deficiencies in the internal control over financial
reporting that might be deficiencies, significant deficiencies, or material weaknesses.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A significant deficiency is a deficiency, or a
combination of deficiencies, in internal control that is less severe than a material weakness, yet important
enough to merit attention by those charged with governance. A material weakness is a deficiency, or
combination of deficiencies, in internal control, such that there is a reasonable possibility that a material
misstatement of the entity’s financial statements will not be prevented, or detected and corrected on a
timely basis

In our fiscal year 2009 audit, we did not identify any deficiencies in internal control over financial
reporting that we consider to be material weaknesses, as defined above.


                                                                          4
                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
This report is intended solely for the information and use of FinCEN’s management, the U.S. Department
of the Treasury Office of Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




December 15, 2009




                                                  5
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                  Independent Auditors’ Report on Compliance and Other Matters


Inspector General, U.S. Department of the Treasury and
Director, Financial Crimes Enforcement Network:


We have audited the balance sheet of the U.S. Department of the Treasury – Financial Crimes Enforcement
Network (FinCEN) as of September 30, 2009 and 2008, and the related statements of net cost, changes in
net position, budgetary resources and custodial activity (hereinafter referred to as “financial statements”)
for the years then ended, and have issued our report thereon dated December 15, 2009.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement.

The management of FinCEN is responsible for complying with laws, regulations, and contracts applicable
to FinCEN. As part of obtaining reasonable assurance about whether FinCEN’s financial statements are
free of material misstatement, we performed tests of FinCEN’s compliance with certain provisions of laws,
regulations, and contracts, noncompliance with which could have a direct and material effect on the
determination of the financial statement amounts, and certain provisions of other laws and regulations
specified in OMB Bulletin No. 07-04, including the provisions referred to in Section 803(a) of the Federal
Financial Management Improvement Act of 1996 (FFMIA). We limited our tests of compliance to the
provisions described in the preceding sentence, and we did not test compliance with all laws, regulations,
and contracts applicable to FinCEN. However, providing an opinion on compliance with those provisions
was not an objective of our audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph of this report, exclusive of
those referred to in FFMIA, disclosed no instances of noncompliance or other matters that are required to
be reported herein under Government Auditing Standards or OMB Bulletin No. 07-04.

The results of our tests of FFMIA disclosed no instances in which FinCEN’s financial management
systems did not substantially comply with (1) Federal financial management systems requirements,
(2) applicable Federal accounting standards, and (3) the United States Government Standard General
Ledger at the transaction level.

This report is intended solely for the information and use of FinCEN’s management, the U.S. Department
of the Treasury Office of Inspector General, OMB, the GAO, and the U.S. Congress and is not intended to
be and should not be used by anyone other than these specified parties.




December 15, 2009

                                                                         6
                                KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                member firm of KPMG International, a Swiss cooperative.
Management Discussion and Analysis
                                 Department of the Treasury
                            Financial Crimes Enforcement Network


                              Management Discussion and Analysis
                                     September 30, 2009


The Financial Crimes Enforcement Network (FinCEN), a Treasury Department bureau reporting
to the Under Secretary, Terrorism and Financial Intelligence, plays a key role in supporting the
Department’s strategic goal of ‘Prevented terrorism and promoted the nation’s security through
strengthened international financial systems.’ FinCEN supports Treasury’s national security
goal by identifying criminal activity to utilize the financial system for illicit dealings and
ensuring safer and more transparent U.S. and international financial systems through the
administration of the Bank Secrecy Act (BSA). The bureau also supports Treasury’s other
strategic goals by deterring noncompliance with tax laws and promoting investigation of fraud
and abuse/asset recovery, strengthening financial institutions and markets, and promoting
compliance with laws and regulations.

FinCEN efforts clearly support the Treasury Secretary’s priority to restore confidence in the
financial system by harnessing all of its authorities to support domestic and global efforts in the
fight against financial fraud. Specifically, FinCEN’s activities to safeguard the financial system,
improve market integrity, and promote confidence in the financial system. FinCEN mission
components continually enhance the Secretary’s priority in unique and complimentary ways.
The regulatory component identifies financial industries and new payment methods vulnerable to
money laundering, and develops corresponding policy and guidance to strengthen financial
stability. The analytic component examines the BSA data filed by financial industries to identify
vulnerabilities and financial fraud, which if left undetected undermines economic growth.
Finally, modernization of the system to collect and store BSA data improves government-wide
efforts to detect criminal activity, including tax and financial fraud.

The BSA requires financial institutions to file reports and maintain records on certain types of
financial activity and to establish appropriate internal controls to guard against financial fraud,
money laundering, terrorist financing, and other types of illicit finance. These reports and
records have a high degree of usefulness in criminal, tax, and regulatory matters. Law
enforcement agencies use BSA information, domestically and through exchanges with
international counterparts, to identify, detect and deter financial fraud and money laundering.
Acts of fraud and money-laundering are interconnected and as the proceeds of these fraudulent
activities are ultimately integrated into the financial system. Regulatory authorities use BSA
information in promoting safety and soundness of financial institutions and markets in carrying
out prudential supervision, including to ensure compliance with BSA requirements.

FinCEN also serves as the nation’s financial intelligence unit (FIU). A FIU serves as a national
center to collect, analyze, disseminate, and exchange information pursuant to a country’s anti-
money laundering/counter-terrorist financing (AML/CFT) legislation and regulations. This
includes information about suspicious or unusual financial activity reported by the financial


                                                 7
sector. FinCEN has a unique authority to facilitate law enforcement investigations involving
transnational criminal activity and financial flows, by exchanging lead information with FIU
counterparts in over 100 countries around the world.

FinCEN’s activities and efforts are developed in coordination with federal, state, and
international partners. These efforts are linked to the following strategic goals:
    • Financial systems resistant to abuse by money launderers, terrorists, and their financial
       supporters, and other perpetrators of financial crime;
    • Detection and deterrence of money laundering, terrorism financing, and other illicit
       activity; and
    • Efficient management, safeguarding, and use of BSA information.

FY 2009 Accomplishments

In the regulatory area, FinCEN’s policy efforts focus on efficient and effective BSA
administration. This includes improving the consistency in the application of BSA regulations to
regulated financial institutions, providing guidance regarding regulatory expectations,
conducting studies to provide feedback to stakeholders, and initiating enforcement actions when
appropriate.

In FY 2009, FinCEN:
   • Issued an advisory to assist financial institutions in identifying questionable loan
     modification schemes and reporting that information to law enforcement, in support of a
     major Administration effort to combat foreclosure rescue scams. The advisory provided
     “red flags” for financial institutions that may indicate a loan modification or foreclosure
     rescue scam;
   • Issued a Notice of Proposed Rulemaking (NPRM) to re-designate and reorganize the BSA
     regulations in a new chapter within the Code of Federal Regulations. The re-designation
     and reorganization of the regulations in a new chapter is not intended to alter regulatory
     requirements. The regulations will be organized in a more consistent and intuitive
     structure that more easily allows financial institutions to identify their specific regulatory
     requirements under the BSA. The new chapter will replace 31 CFR Part 103;
   • Published a final rule that simplifies the current requirements for depository institutions to
     exempt their eligible customers from currency transaction reporting. The final rule was
     developed in accordance with the Government Accountability Office's recommendations,
     FinCEN's independent research, and after considering valuable industry feedback received
     during the public comment process;
   • Issued a BSA examination manual for money services businesses (MSBs), in collaboration
     with the Internal Revenue Service (IRS), state agencies responsible for MSB regulation,
     the Money Transmitter Regulators Association (MTRA), and the Conference of State Bank
     Supervisors (CSBS). The manual's risk-based approach empowers the examiner to decide
     what examination procedures are necessary to evaluate whether the MSB's AML program
     is compliant with BSA requirements; and

                                                8
  • Proposed revised rules and guidance that would permit certain affiliates of depository
    institutions as well as broker-dealers in securities, mutual funds, futures commission
    merchants, and introducing brokers in commodities, to share suspicious activity reports
    (SARs) within a corporate organizational structure for purposes consistent with Title II of
    the BSA. The revised rules will help financial institutions better facilitate compliance with
    the applicable BSA requirements and more effectively implement enterprise-wide risk
    management.

FinCEN’s efforts in the analytical area focus on developing products and services to enhance law
enforcement’s detection and deterrence of domestic and international financial fraud, money
laundering, terrorism financing, and other illicit activity. FinCEN intends to improve its expert
analysis of BSA data to provide early warning of emerging trends of fraud and other criminal
abuse. This includes information exchange with counterpart FIUs in 116 countries that are
members of the Egmont Group.

In FY 2009, FinCEN:
    • Continued to support efforts to combat mortgage fraud by publishing a report entitled
       Mortgage Loan Fraud Connections with other Financial Crime that examined a range of
       BSA reports to identify, evaluate and document interconnections between individuals
       involved in mortgage loan fraud and other financial crimes;
    • As part of the larger U.S. Government efforts to bring relief to America’s housing market
       and homeowners, FinCEN initiated an advanced targeting process to identify potential
       loan modification perpetrators and to provide analytical support to investigations and
       prosecutions. FinCEN issued an advisory to financial institutions to help them identify
       and report questionable foreclosure rescue and mortgage modification schemes. Finally,
       FinCEN worked with Federal, state, and local agencies to combat the increase in
       mortgage foreclosure scams by networking agencies with common subjects to avoid
       overlapping investigations;
    • Participated in a multi-agency task force headed by the Special Inspector General for the
       Troubled Asset Relief Program (SIGTARP) to deter, detect, and investigate instances of
       fraud in the Term Asset-Backed Securities Loan Facility (TALF);
    •  Held several inter-agency information sharing events to discuss sensitive data with the
       private sector. These events combined analytical findings and related law enforcement
       presentations for financial industry personnel, and provided an opportunity for industry
       personnel to share information on vulnerabilities and suspicious activities identified
       through their operations. A recent event included information sharing on money
       laundering and other financial crimes in Mexico and on the Southwest Border with
       representatives from banks that provide financial services to Mexico and the Southwest
       border region;
    •  Produced a series of strategic international studies addressing complex money laundering
       schemes and examining money flows related to illicit activities;



                                               9
 •   Composed and disseminated 1,027 tactical reports to the other Egmont FIUs. These
     intelligence products are integral to investigations of money laundering and terrorist
     financing around the world; and
 •   Continued outreach and liaison activities that enhance the quality and quantity of
     financial intelligence exchanged between FinCEN and foreign FIUs. These efforts
     included training and technical assistance programs that strengthen the global network of
     FIUs.

FinCEN’s efforts related to the efficient management, safeguarding, and use of BSA
information focus on maximizing utilization by improving the overall information
infrastructure and enhancing information technology management capabilities. Improving data
quality and access remains a priority for FinCEN.

In FY 2009, FinCEN:
  • Retired magnetic media filing as a means to provide BSA information, enabling FinCEN
     to continue increasing the number of electronic filers. By the end of FY 2009, 82 percent
     of all customers used E-Filing;
  • Introduced additional field and business rule validations to batch data at E-Filing
     submission to improve data quality and provide faster error notification. This validation
     process currently applies to Currency Transaction Report (CTR) forms and the
     Designation of Exempt Person form. Filers receive e-mail that their submitted file has
     errors and may access a designated error page to view batch validation error details;
  • Transitioned to Adobe LiveCycle from IBM WorkPlace forms during the third quarter of
     FY 2009. Moving to a widely used industry standard, Adobe LiveCycle brings E-filing
     in line with industry standards and offers improved forms usability for financial
     institutions;
  • Implemented functionality to provide the BSA E-filing community with SAR
     acknowledgement files that contains the unique identifier for each submitted form or
     batch of forms. This feedback will alert filers about errors contained in filings with the
     goal of increasing BSA data quality;
  • Implemented a collaboration and communities portal under the auspices of the Egmont
     Secure Web. This initiative leverages Web 2.0 Technologies and enables Egmont
     members to use secure communities for collaboration on sensitive special projects, as
     well as improve how each working group manages and shares documents and their
     contents; and
  • Completed all of the program/enterprise-level documentation defined in FinCEN’s
     System Development Life Cycle for the BSA IT Modernization initiative. This
     documentation sets the foundation for the rest of the program and includes program
     management, business, and IT solution development documents, such as the Business
     System Requirements Report, the System Validation and Verification Plan, and the
     Transition Management Plan.



                                             10
Highlights of Performance Measures

Performance Measures                                                    FY        FY        FY
                                                                       2008      2009      2009
                                                                      Actual    Target    Actual
Percentage of federal and state regulatory agencies with               41%       45%       43%
memoranda of understanding (MOU)/information sharing
agreements
Percentage of FinCEN’s Regulatory Resource Center customers            94%       90%       94%
rating the guidance received as understandable
Average time to process enforcement matters (years)                     0.7       1.0       1.0
Percentage of FinCEN’s compliance MOU holders finding                  64%       66%       82%
FinCEN’s information exchange valuable to improve the BSA
consistency and compliance of the financial system
Percentage of customers finding FinCEN’s analytic support highly       83%       80%       81%
valuable
Percentage of customers satisfied with BSA E-Filing                    93%       90%       94%

In the regulatory area, FinCEN continues to increase awareness by state and federal regulators
that examine for BSA compliance by negotiating MOUs for information sharing. In 2009,
FinCEN reached a level 43 percent of federal and state regulatory agencies with
MOU/information sharing agreements, but did not meet its target of 45 percent. FinCEN
finalized an MOU with the Commodity Futures Trading Commission (CFTC), the last remaining
federal regulator with BSA examination authority to sign an agreement and the Public
Corporation for the Supervision and Insurance of Cooperatives in Puerto Rico. However,
FinCEN was not able to execute three additional agreements partially due to budget restraints at
the state regulators. FinCEN will continue collaborating with state insurance agencies and other
regulatory agencies to sign additional agreements to meet future targets. In FY 2008, FinCEN
surveyed its compliance MOU holders to determine the impact of the information exchange to
improve the BSA consistency and compliance of the financial system, and established a 64
percent baseline of respondents rating the information exchange valuable to improving BSA
consistency and compliance. In FY 2009, FinCEN surpassed its target of 66 percent rating the
information exchange valuable with 82 percent. FinCEN attributes a portion of this success to
the distribution of analytic information to the MOU holders throughout the fiscal year. To
achieve future targets, FinCEN will continue to facilitate routine discussions with the MOU
holders.

FinCEN’s goal to provide financial institutions with understandable guidance is critical to
institutions establishing anti-money laundering programs that comply appropriately with the
BSA. FinCEN’s goal is to maintain at least a 90 percent satisfaction level and FinCEN
surpassed its target with a 94 percent. FinCEN attainted this success by responding timely
(within 24 hours of the inquiry), providing a high level of service, and improving the
organization of information on its public website. In order to achieve future targets, FinCEN
                                               11
will continue to make guidance available on the Internet, accept and analyze customer feedback,
and conduct surveys to measure customer satisfaction.

FinCEN also works closely with its regulatory partners to take enforcement action against
financial institutions that systemically and egregiously violate the provisions of the BSA,
including through imposition of civil money penalties when appropriate. Timely enforcement
action is essential to deter non-compliance with the BSA. In FY 2009, FinCEN met its target of
1.0 years with an average time of 1.0 years. FinCEN will continue to actively manage casework
to meet future targets.

In the analytical area, FinCEN supports domestic law enforcement and international FIU
partners by providing analyses of BSA information, and measures the percentage of customers
finding FinCEN’s analytic reports highly valuable. The measure closely ties to how BSA
information is used by law enforcement and international FIUs to identify, investigate, and
prevent abuse of the financial system. In FY 2009, FinCEN surpassed its target of 80 percent
with 81 percent. FinCEN will continue its efforts to solicit input from its customers on types of
products they would like to see produced and possible ways to improve the structure of its
reports to meet future targets.

In the efficient management, safeguarding, and use of BSA information, FinCEN conducts a
survey of the users of the BSA E-Filing system to determine the overall satisfaction level and to
identify where improvements are needed. The FY 2009 target was to maintain at least a 90
percent satisfaction level, and FinCEN surpassed its target with 94 percent. FinCEN will
continue outreach to E-Filers and ensure the technology supports to the demand to achieve future
targets.

Future Outlook for FY 2010/FY 2011
FinCEN’s future plans in the regulatory area will improve its ability to strengthen financial
system security and enhance U.S. national security. To ensure financial systems are resistant to
abuse by money launderers, terrorists and other perpetrators of financial fraud and crimes,
FinCEN will:
    • Clarify the scope of the MSB definitions to the extent consistent with appropriately
      managing money laundering risks in this industry, and continue to review the appropriate
      regulatory treatment of stored value providers within the MSB framework, consistent with
      the requirements of the Credit Card Accountability, Responsibility, and Disclosure Act;
    • Continue the outreach initiative to the financial services industry, which expanded from
      visits to the largest fifteen depository institutions in the U.S. to large MSBs, and will
      continue to expand to additional financial service industries;
    • Implement a simplified, revised regulatory structure, proposed in FY 2009, to reorganize
      BSA regulations under Chapter 10 of the Code of Federal Regulations;
    • Conduct analysis in support of efforts to combat mortgage loan fraud, building off prior
      analysis efforts to identify emerging trends, and continue to consider appropriate
      regulatory options; and
                                                12
   • Strengthen oversight of recently-covered industries under the BSA, by beginning to sign
     information sharing agreements with state insurance regulators and working cooperatively
     with the IRS and state regulators on consistent, risk-based examination procedures.

FinCEN’s future plans in the analytical area will improve its ability to strengthen financial
system security and enhance U.S. national security. To detect and deter financial fraud, money
laundering, terrorism financing, and other illicit activity, FinCEN will:
    • Implement a process to capture and gauge analytic product relevance to support law
       enforcement;
    • Advance collaborative relationships with investigative and intelligence agencies to
       exploit SARs for proactive evaluation;
    • Expand working agreements with the government agency customer community within
       the provisions of 31 USC 5311 and financial institution AML compliance personnel on
       issues of strategic importance to FinCEN’s analytical objectives;
    • Improve analytical products and responsiveness to foreign government counterparts to
       strengthen the effectiveness of international AML/CFT efforts; and
    • Increase joint analytical projects with foreign FIU counterparts through intensified
       operational engagements with key strategic partner FIUs.

FinCEN’s future plans will improve its ability to strengthen financial system security and
enhance U.S. national security. To ensure efficient management, safeguarding and use of BSA
information, FinCEN will:
    • Modernize BSA information management and analysis to equip law enforcement and
        financial industry regulators with better decision-making abilities and increase the value
        of BSA information through increased data integrity and analytical tools. This multi-year
        program will:
      o     Deploy advanced analytical and BSA data storage technologies;
      o     Implement innovative Web-services and E-Filing technologies;
      o     Enrich and standardize BSA data to maximize value for state and federal partners;
      o     Integrate BSA data with other state and federal sources;
      o     Deploy proven customer relationship technologies to capture data usage and access
            patterns and solicit/provide feedback to partners;
      o     Establish effective data security and audit technologies to maximize BSA data
            confidentiality and integrity; and
      o     Retire the current system of record (WebCBRS).


FY 2009 Financial Statement Highlights

Highlights of FinCEN’s FY 2009 financial performance appear below. FinCEN is financed
annually through appropriations authorized by Congress. The FY 2009 enacted budget is $91.5
million.

                                               13
Balance Sheets:
Assets: The total assets as of September 30, 2009 and 2008 were $ 44.5 and $ 39.9 million,
respectively. Of which approximately 78.9 percent consists of the Fund Balance with Treasury
in 2009 and 70.4 percent in 2008. Total assets increased by $ 4.6 million. This increase
primarily resulted from $7.0 million increase in fund balance with Treasury and also a $.3
million increase in accounts receivable. This was offset by a $2.1 million decrease in advances
and prepayments and $.6 million decrease in plant and equipment.
Liabilities: The total liabilities as of September 30, 2009 and 2008 were $10.9 and $11.5
million, respectively. There was a $0.6 million decrease in the total liabilities in FY 2009 over
FY 2008. This decrease was due to a $0.6 million reduction in liabilities with the public.

Statement of Net Costs: The net cost of operations totaled as of September 30, 2009 and 2008
was $119.6 million and $111.3 million, respectively. This was an increase of $8.3 million, 7.5
percent. All of FinCEN’s costs are reported under the Department of the Treasury’s Strategic
Goal 3: Prevented Terrorism and Promoted the Nation’s Security through Strengthened
International Financial Systems. FinCEN’s net cost aligned to its own Strategic Goals is
disclosed on the face of the statement of net cost. A significant portion of FinCEN’s net costs
($59.4 million or 49.7 percent) relates to FinCEN's Strategic Goal 3: Efficient Management,
Safeguarding and Use of BSA Information.


Internal Controls, Systems, and Audits

Financial management systems are in substantial compliance with federal financial systems
standards, the Federal Manager’s Financial Integrity Act (FMFIA) Section 4, and the Federal
Financial Management Improvement Act (FFMIA). FinCEN relies on the Bureau of Public Debt
(BPD) Administrative Resource Center (ARC) for administrative and accounting services and
systems. FinCEN’s investment review board meets routinely to monitor ongoing IT projects and
review proposed capital investments.

Three audits were completed in FY 2009 by the Government Accountability Office (GAO). The
first GAO audit examined information security controls that protect the Bank Secrecy Act data
and recommended changes to improve information security. The second GAO audit reviewed
the usefulness of SARs and recommended that FinCEN further develop and document its form
revision process to ensure appropriate participation by external stakeholders. The third GAO
audit reviewed the current BSA compliance and enforcement framework, including FinCEN’s
relationship with other federal agencies with delegated examination authority for BSA
compliance. The report recommended that FinCEN further expand its BSA compliance
coordination and information-sharing efforts with other federal agencies.




                                                14
Improper Payment Improvement Act (IPIA) Reporting

The Improper Payments Information Act of 2002 (IPIA) requires agencies to review their
programs and activities to identify those that are susceptible to significant erroneous payments.
“Significant” means that an estimated error rate and a dollar amount exceed the threshold of 2.5
percent and $10 million of total program funding.

As a bureau of the Department of the Treasury, FinCEN follows the methodology and guidance
prescribed by the Department. Each year, a comprehensive inventory of the funding sources for
all programs and activities is developed. If program or activity funding is at least $10 million,
risk assessments are required at the payment type level (e.g., payroll, contracts, vendors, travel,
etc.). For those payment types resulting in high risk assessments that comprise at least 2.5
percent and $10 million of a total funding source, (1) statistical sampling must be performed to
determine the actual improper payment rate, and (2) a corrective action plan to reduce erroneous
payments must be developed and submitted to the Office of Management and Budget (OMB) for
approval.

All of FinCEN’s programs and activities resulted in low risk susceptibility for improper
payments.


Limitations of the Financial Statements

The principal financial statements have been prepared to report the financial position and results
of operations of FinCEN. While the statements have been prepared from the books and records
of FinCEN in accordance with GAAP for federal entities and the formats prescribed by OMB,
the statements are in addition to the financial reports used to monitor and control budgetary
resources which are prepared from the same books and records.

The statements should be read with the realization that they are for a component of the U.S.
Government, a sovereign entity.




                                                15
THIS PAGE INTENTIONALLY LEFT BLANK




                16
                       United States Department of the Treasury
                        Financial Crimes Enforcement Network
                                    Balance Sheets
                                                                   As of September 30
                                                            2009                        2008

ASSETS (Note 2)
Intragovernmental:
  Fund balance with Treasury (Note 3)                     $35,130,998                $28,070,158
  Accounts receivable (Note 4)                              1,326,724                    987,111
  Other (Note 6)                                            1,320,109                  3,518,468
Total intragovernmental                                    37,777,831                 32,575,737

  Accounts receivable, net (Note 4)                             1,270                      5,228
  Property and equipment, net (Note 5)                      6,753,289                  7,350,830
  Other (Note 6)                                                    0                     11,990
Total assets                                              $44,532,390                $39,943,785

LIABILITIES (Note 7)
Intragovernmental:
  Accounts payable                                          2,204,608                    1,891,961
  Other (Note 8)                                            2,169,570                    2,462,237
Total intragovernmental                                     4,374,178                    4,354,198

  Accounts payable                                          1,833,138                    3,249,208
  Other (Note 8)                                            4,659,507                    3,887,206
Total liabilities                                          10,866,823                   11,490,612

Commitments and contingencies (Notes 9 and 10)

NET POSITION
  Unexpended appropriations                                31,558,804                 25,676,184
  Cumulative results of operations                          2,106,763                  2,776,989
Total net position                                         33,665,567                 28,453,173
Total liabilities and net position                        $44,532,390                $39,943,785




                                          17
        The accompanying notes are an integral part of these financial statements.
                     United States Department of the Treasury
                      Financial Crimes Enforcement Network
                              Statements of Net Cost


                                                       For the Years Ended September 30
PROGRAM COSTS (Note 11)                                  2009                    2008
Financial system resistant to abuse by money
launders, terrorists, etc.
  Gross costs                                           33,055,480              $33,749,889
  Less: earned revenue                                     (55,039)                   (22,171)
Net program costs                                       33,000,441               33,727,718

Detection and deterrence of money laundering,
terrorism financing and other illicit activity
  Gross costs                                           27,485,779               25,477,865
  Less: earned revenue                                    (364,014)                  (174,069)
Net program costs                                       27,121,765               25,303,796

Efficient management, safeguarding, and use of BSA
information.
  Gross costs                                           59,826,548               54,226,684
  Less: earned revenue                                    (396,590)              (1,934,751)
Net program costs                                       59,429,958               52,291,933



Net cost of operations                                 119,552,164             $111,323,447




                                          18
        The accompanying notes are an integral part of these financial statements.
                          United States Department of the Treasury
                           Financial Crimes Enforcement Network
                            Statements of Changes in Net Position

                                                               For the Years Ended September 30
                                                                 2009                    2008
Cumulative Results of Operations:
  Beginning balances                                            $2,776,989             $7,940,852


Budgetary financing sources:
  Appropriations used                                           85,729,313             78,434,305

Other financing sources (non-exchange):

  Transfers in/out without reimbursement                         5,355,153                475,111
  Imputed financing from costs absorbed by others (Note 14)     27,797,472             27,250,168
Total financing sources                                        118,881,938            106,159,584

Net cost of operations (Note 11)                              (119,552,164)          (111,323,447)
Net change                                                        (670,226)            (5,163,863)


Cumulative results of operations                                $2,106,763             $2,776,989


Unexpended appropriations:
  Beginning balance                                            $25,676,184            $19,374,601

Budgetary financing sources:
  Appropriations received                                       91,465,000             85,844,000
  Appropriations transferred in/out                                250,000                 221,045
  Other adjustments                                              (103,067)             (1,329,157)
  Appropriations used                                          (85,729,313)           (78,434,305)
Total budgetary financing sources                                5,882,620              6,301,583


Total unexpended appropriations                                 31,558,804             25,676,184


Net position                                                   $33,665,567            $28,453,173

                                          19
        The accompanying notes are an integral part of these financial statements.
                        United States Department of the Treasury
                         Financial Crimes Enforcement Network
                           Statements of Budgetary Resources


                                                          For the Years Ended September 30
                                                           2009                     2008
BUDGETARY RESOURCES
Unobligated balance, brought forward, October 1           $18,459,994                 $11,218,743
Recoveries of prior year unpaid obligations (Note 12)       1,582,110                   2,427,034
Budget authority:
Appropriations                                             91,465,000                  85,844,000
  Spending authority from offsetting collections:
    Earned
      Collected                                             5,788,303                   1,736,169
      Change in receivables from Federal sources              339,613                     869,932
    Change in unfilled customer orders
      Without advance from Federal sources                    949,515                   1,625,405

  Subtotal                                                 98,542,431                  90,075,506
Non-expenditure transfers, net: anticipated and actual        250,000                     221,045
Permanently not available (Note 12)                          (103,067)                (1,329,157)
Total budgetary resources                                $118,731,468                $102,613,171

STATUS OF BUDGETARY RESOURCES
Obligations incurred (Note 12):
  Direct                                                  $86,540,979                 $79,783,234
  Reimbursable                                              7,149,178                   4,369,943
  Subtotal                                                 93,690,157                  84,153,177
Unobligated balance:
  Apportioned                                              20,357,952                  14,639,175
Unobligated balance not available                           4,683,359                   3,820,819
Total status of budgetary resources                      $118,731,468                $102,613,171



                                                                     (Continued)



                                          20
        The accompanying notes are an integral part of these financial statements.
                      United States Department of the Treasury
                       Financial Crimes Enforcement Network
                         Statements of Budgetary Resources

                                                            For the Years Ended September 30
                                                              2009                   2008
CHANGE IN OBLIGATED BALANCE
Obligated balance, net:
    Unpaid obligations brought forward, October 1           $12,799,924           $16,223,079
    Less: Uncollected customer payments from Federal
       sources, brought forward, October 1                   (3,189,760)             (694,423)
Total unpaid obligated balance, net                            9,610,164           15,528,656
Obligations incurred, net                                     93,690,157           84,153,177
Less: Gross outlays                                         (90,339,397)         (85,149,298)
Less: Recoveries of prior year unpaid obligations, actual    (1,582,110)          (2,427,034)
Change in uncollected customer payments from Federal
     sources                                                 (1,289,128)           (2,495,337)
Obligated balance, net, end of period:
     Unpaid obligations                                      14,568,575            12,799,924
     Less: Uncollected customer payments from Federal
       sources                                               (4,478,888)           (3,189,760)
Total, unpaid obligated balance, net, end of period         $10,089,687            $9,610,164


NET OUTLAYS
   Gross outlays                                            $90,339,397           $85,149,298
   Less: Offsetting collections                              (5,788,303)           (1,736,169)
   Less: Distributed offsetting receipts                        (16,165)                 2,821
Net outlays                                                 $84,534,929           $83,415,950




                                          21
        The accompanying notes are an integral part of these financial statements.
                    United States Department of the Treasury
                     Financial Crimes Enforcement Network
                        Statements of Custodial Activity


                                                           For the Years Ended September 30
                                                             2009                  2008
Revenue activity (Note 13):
  Sources of cash collections:
    Civil monetary penalties                                 $16,308                 $12,532
  Total cash collections                                      16,308                  12,532
Accrual adjustments                                                0                  (2,821)
Total custodial revenue                                       16,308                   9,711

Disposition of collections:
  Transferred to others:
    Department of the Treasury                               (16,308)                (12,532)
    (Increase)/decrease in amounts yet to be transferred            0                   2,821
Net custodial activity                                            $0                      $0




                                          22
        The accompanying notes are an integral part of these financial statements.
                     United States Department of the Treasury
                      Financial Crimes Enforcement Network
                         Notes to the Financial Statements
                 For the Years Ended September 30, 2009 and 2008


NOTE 1. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES

Reporting Entity
The Financial Crimes Enforcement Network (FinCEN) was formally established by the
Department of the Treasury (Treasury), Order 105-08, on April 25, 1990 and upgraded to bureau
status October 26, 2001 in Public Law 107-56. The mission of FinCEN is to enhance U. S.
national security, deter and detect criminal activity, and safeguard the financial systems from
abuse by promoting transparency in the U.S. and international financial systems. This is
accomplished primarily through the administration of the Bank Secrecy Act (BSA); supporting
law enforcement, intelligence, and regulatory agencies through sharing and analysis of financial
intelligence; enhancing international anti-money laundering and counterterrorist financing
efforts and cooperation; and networking people, entities, ideas, and information.

Basis of Accounting and Presentation
The financial statements have been prepared from FinCEN’s accounting records in conformity
with accounting principles generally accepted in the United States of America. Accounting
principles generally accepted for Federal entities are the standards prescribed by the Federal
Accounting Standards Advisory Board (FASAB). FASAB is recognized by the American
Institute of Certified Public Accountants as the official accounting standards-setting body of the
United States Government.

These financial statements are provided to assist the Department of Treasury meet the
requirements of the Government Management Reform Act of 1994. The financial statements
consist of the balance sheet, and the statements of net costs, changes in net position, budgetary
resources and custodial activity. The financial statements and the related notes are presented on
a comparative basis providing information for fiscal years 2009 and 2008.

FinCEN’s financial statements with respect to the balance sheet, the statement of net cost, and
the statement of changes in net position are reported using the accrual basis of accounting.
Under the accrual method, revenues are recognized when earned and expenses are recognized
when a liability is incurred without regard to receipt or payment of cash. FinCEN’s statement of
budgetary resources is reported using the budgetary basis of accounting. Budgetary accounting
facilitates compliance with legal constraints and controls over the use of federal funds. It
generally differs from the accrual basis of accounting in that obligations are recognized when
new orders are placed, contracts awarded, and services received, that will require payments
during the same or future periods. FinCEN’s non-entity revenues are reported on the statement
of custodial activity using a modified accrual basis of accounting. With this method, revenue
from cash collections are reported separately from receivable accruals and cash disbursements
are reported separately from payable accruals. Intragovernmental assets and liabilities result


                                            23
from activity with other Federal agencies. All other assets and liabilities result from activity
with parties outside the Federal government, such as domestic and foreign persons,
organizations, or governments. Intragovernmental earned revenues are collections or accruals of
revenue from other Federal agencies, and intragovernmental costs are payments or accruals to
other Federal agencies.

While these financial statements have been prepared from the books and records of FinCEN,
these financial statements are in addition to the financial reports used to monitor and control
budgetary resources which are prepared from the same books and records.

These financial statements should be read with the realization that they are for a component of a
sovereign entity, where liabilities not covered by budgetary resources cannot be liquidated
without the enactment of an appropriation, and that the payment of all liabilities other than for
contracts can be abrogated by the sovereign entity.

Fund Balance with Treasury
FinCEN does not maintain cash in commercial bank accounts. The Treasury processes cash
receipts and disbursements. Fund balance with Treasury is composed of appropriated and trust
funds that are available to pay current liabilities and finance authorized purchase commitments.

Accounts Receivable
Accounts receivable represent amounts owed to FinCEN by other Federal agencies and the
public.

Intragovernmental accounts receivable represent amounts due from other Federal agencies under
contractual agreements or other arrangements for services or activities performed by FinCEN.
These receivables are expected to be fully collected.

Public accounts receivable consist of administrative receivables from employees or suppliers and
the levy of civil monetary penalties from non-Federal sources resulting from FinCEN’s
regulatory responsibilities. Public accounts receivable are presented net of an allowance for
doubtful accounts, which is determined by considering the debtor’s current ability to pay, the
debtor’s payment record and willingness to pay, and an analysis of aged receivable activity.

Property and Equipment
Property and equipment is recorded at cost and is depreciated using the straight-line method over
the estimated useful lives of the assets. FinCEN capitalizes property and equipment with an
acquisition value of $25,000 or greater, and a useful life of two years or greater. FinCEN also
capitalizes bulk acquisitions of like-kind property and equipment items that are individually
valued under the capitalization threshold but are, in the aggregate, significant to FinCEN’s
financial position or results of operations.

Internal-use software includes purchased commercial off-the-shelf software (COTS), contractor
developed software, and software that was internally developed by agency employees. For
COTS software, the capitalized costs include the amount paid to the vendor for the software, for



                                            24
contractor developed software it includes the amount paid to a contractor to design, program,
install and implement the software. Capitalized costs for internally developed software include
the full cost (direct and indirect) incurred during the software development phase.

Major alterations and renovations that increase an asset’s useful life are capitalized, while
normal maintenance and repair costs are charged to expense as incurred. Upon legal transfer,
donation, or approval for disposal of property and equipment, the value of the related asset and
corresponding accumulated depreciation is removed from the financial statements.

Leasehold improvements are amortized over the shorter of the term of the remaining portion of
the lease, or the useful life of the improvement. Amortization of capitalized software begins on
the date the software is placed in production (i.e., successfully installed and tested).

Equipment that is to be constructed is recorded as construction-in-progress until completed and
is valued at actual costs. Construction-in-progress assets are not depreciated until completed and
placed in service.

Liabilities
Liabilities represent the probable and measurable future outflow or other sacrifice of resources as
a result of past transactions or events. Liabilities covered by budgetary resources are those
liabilities for which Congress has appropriated funds or funding is otherwise available to pay
amounts due. Liabilities not covered by budgetary or other resources represent amounts owed in
excess of available, congressionally appropriated funds or other amounts, and there is no
certainty that the appropriations will be enacted.

Annual, Sick and Other Leave
Annual leave is accrued as a liability when earned, and the accrual is reduced as leave is taken.
The balance in the accrued annual leave account reflects current pay rates and leave balances,
and is reported within other liabilities in the accompanying Balance Sheet. Sick leave and other
types of non-vested leave are charged to operating costs as the leave is taken.

Workers’ Compensation
A liability is recorded for actual and estimated future payments to be made for workers’
compensation pursuant to the Federal Employees’ Compensation Act (FECA). The actual
liability is presented as a component of intragovernmental other liabilities, and the actuarial
liability is presented within other liabilities in the accompanying Balance Sheet.

FECA provides income and medical cost protection to covered Federal civilian employees
injured on the job, employees who have incurred work-related occupational diseases and
beneficiaries of employees whose death is attributable to a job-related injury or occupational
disease. Claims incurred for benefits to employees are administered by the U.S. Department of
Labor (DOL) which initially pays valid claims and subsequently seeks reimbursement from the
Federal agencies employing the claimants. Reimbursement to DOL occurs approximately two
years subsequent to the actual disbursement to the claimant. Budgetary resources for this
intragovernmental liability are made available to FinCEN as part of its annual appropriation



                                             25
from Congress in the year in which the reimbursement takes place.

Future workers’ compensation estimates are generated by DOL from an application of actuarial
procedures developed to estimate the liability for FECA benefits. The actuarial liability for
future workers’ compensation benefits includes the expected liability for death, disability,
medical and miscellaneous costs for approved compensation cases, plus a component for
incurred but not reported claims. The liability is determined using a method that utilizes
historical benefit payment patterns related to a specific incurred period to predict the ultimate
payments related to that period. Based on information provided by the DOL, Treasury allocates
the overall Treasury liability to Treasury components based on prior claims payment experience.
The accrued liability is not covered by budgetary resources and will require future funding.

Unamortized Rent Abatement
The terms of the operating lease between FinCEN and the General Services Administration
(GSA) for the Vienna, VA facility contain a rent abatement period. FinCEN is recognizing rent
expense on a straight-line basis over the lease term. Accordingly, an unamortized rent abatement
liability is included in other intragovernmental liabilities in the accompanying Balance Sheet.
This liability is being amortized on a straight-line basis over the lease term.

Pension Costs and Other Retirement Benefits
Most FinCEN employees hired prior to January 1, 1984 participate in the Civil Service
Retirement System (CSRS). As of September 30, 2009 and 2008, FinCEN contributed 7 percent
of base pay for regular employees.

Employees hired after December 31, 1983 are automatically covered by the Federal Employee’s
Retirement System (FERS) and Social Security. As of September 30, 2009 and 2008, FinCEN
contributed 11.2 percent of base pay for the FERS basic benefit. A primary feature of FERS is
that it offers a savings plan to which FinCEN automatically contributes 1 percent of base pay and
matches employee contributions up to an additional 4 percent of base pay. FinCEN also
contributes the employer’s Social Security matching share for FERS participants.

FinCEN is not responsible for administering either CSRS or FERS. Therefore, FinCEN does not
report CSRS or FERS assets, accumulated plan benefits or unfunded liabilities, if any, applicable
to FinCEN employees. Reporting such amounts is the responsibility of the Office of Personnel
Management (OPM).

Similar to CSRS and FERS, OPM, rather than FinCEN, reports the liability for future payments
to retired employees who participate in the Federal Employees Health Benefits Program
(FEHBP) and the Federal Employees Group Life Insurance Program (FEGLI). FinCEN does not
contribute funds for the cost to provide health benefits and life insurance to its retirees.

The estimated cost of providing CSRS and FERS retirement and FEHBP and FEGLI benefits to
retirees is more than the amounts contributed by FinCEN and its employees. Federal entities are
required to report the full cost of providing retirement benefits to include the cost financed by
OPM. The additional expense representing the difference between the estimated cost and the



                                           26
employer and employee contributions for these programs is included as an expense and as a
related imputed financing source in FinCEN’s financial statements.

Entity Revenues, Financing Sources and Imputed Financing Sources
FinCEN receives the majority of funding needed to support its programs through Congressional
appropriations. Additional funding is obtained through exchange revenues.

Appropriations are recognized as a financing source at the time the expenses are incurred or
assets are purchased. Exchange revenue from reimbursable agreements is recognized when
earned (i.e., goods have been delivered or services rendered). Reimbursable work between
Federal appropriations is subject to the Economy Act (31 U.S.C. 1535) or other statutes
authorizing reimbursement. Prices for goods and services sold to other Federal agencies are
generally limited to the recovery of actual costs. FinCEN recognizes as an imputed financing
source the amount of pension and post-retirement benefit expense for current employees paid on
behalf of FinCEN by the Office of Personnel Management (OPM), as well as amounts paid from
the Department of Treasury Judgment Fund in settlement of claims, legal settlements, or court
assessments. When costs that are identifiable to FinCEN and directly attributable to FinCEN’s
operations are paid for by other agencies, FinCEN recognizes these amounts as imputed costs
and financing sources.

Imputed intradepartmental costs represent the un-reimbursed portion of the full costs of goods
and services received by FinCEN from a providing bureau that is part of Treasury. FinCEN
identifies intra-entity costs that meet the criteria for recognition (i.e. materiality, significance to
the entity, directness of the relationship to entity operations, identifiably) that are not fully
reimbursed and recognizes them as operating expenses and an imputed financing source.

Non-Entity Assets, Revenues and Disbursements
Non-entity assets are those held by FinCEN that are not available for use by FinCEN. Non-
entity accounts receivable reported on FinCEN’s Balance Sheet and non-entity revenue reported
on FinCEN’s Statement of Custodial Activity includes civil monetary penalties. Civil monetary
penalties represent amounts assessed on or collected from non-Federal sources for violations of
laws and regulations under FinCEN’s regulatory responsibility.

Non-entity accounts receivable, custodial revenue and disposition of revenue is recognized when
FinCEN is entitled to collect civil monetary penalties on behalf of the Federal government that
have been established as a legally enforceable claim and collection is probable. Proceeds from
the civil monetary penalty assessments are ultimately deposited in the Treasury General Fund
based on established laws and regulations. These funds are not available to fund FinCEN’s
operating activities and accordingly, an offsetting liability due to the Treasury General Fund is
recorded for amounts recognized as non-entity accounts receivable.

Non-entity accounts receivable are presented net of amounts deemed uncollectible. An
allowance for doubtful accounts is established based on an assessment of the debtor’s current
ability to pay, the debtor’s payment record and willingness to pay, and an analysis of aged
receivable activity.



                                               27
Use of Estimates
The preparation of the financial statements in accordance with generally accepted accounting
principles requires management to make estimates and assumptions that affect the reported
amounts of assets and liabilities, the disclosure of contingencies at the date of the financial
statements, and the reported amounts of revenue and expenses during the reporting period.
Significant estimates relate to an allowance for loss on a receivable for fines and penalties,
accrued payroll and benefits, and accrued unfunded leave. Actual results may differ from those
estimates.

Tax Status
FinCEN, as a Federal agency, is not subject to Federal, state, or local income taxes and,
accordingly, no provision for income taxes has been recorded in the accompanying financial
statements.


NOTE 2. NON-ENTITY ASSETS

Non-entity assets as of September 30, 2009 and 2008 consisted of the following:
                                                               2009                             2008
  Civil penalties assessed                                   $1,500,000                       $1,500,000
  Less allowance for doubtful collection                    (1,500,000)                      (1,500,000)

             Total non-entity assets                                        0                          0
   Total entity assets                                             44,532,390                 39,943,785
              Total assets                                       $44,532,390                $39,943,785


Non-entity accounts receivable as of September 30, 2009 and 2008 represents civil monetary
penalties due from non-Federal sources for violations of laws or regulations under FinCEN’s
regulatory responsibility.

The total non-entity assets, if any, are offset on the balance sheet by the custodial liability Due to the
Treasury General Fund. The amount Due to the Treasury General Fund is included in the
intragovernmental other liabilities balance shown in note 8.




                                               28
NOTE 3. FUND BALANCE WITH TREASURY

Fund Balances:
Fund balance with Treasury as of September 30, 2009 and 2008 consisted of the following
components:
                                              2009                  2008

   Trust funds                                      $122,921                  $149,628

   Appropriated funds                             35,008,077                27,920,530

   Total                                         $35,130,998              $28,070,158




Trust funds consist of a violent crime reduction expenditure account that is designated by law as a
trust fund. Receipts in this account are used for law enforcement related information technology
projects.

Appropriated funds consist of amounts appropriated annually by Congress to fund the operations of
FinCEN.

Status of Fund Balances:
The status of fund balance with Treasury as of September 30, 2009 and 2008 consisted of the
following:
                                                  2009                   2008
    Unobligated balance:
      Available                                $20,357,952           $14,639,175
      Unavailable                                4,683,359              3,820,819

   Obligated balance not yet disbursed             10,089,687                 9,610,164

   Total                                         $35,130,998                $28,070,158


The unobligated balance unavailable represents amounts appropriated in prior fiscal years that are
not available to fund new obligations, but may be used to adjust obligations and disbursements that
were recorded before the budgetary authority expired or to meet a bona fide need that arose in the
fiscal year for which the appropriation was made.

The obligated balance not yet disbursed represents amounts designated for payment of goods and
services ordered but not received, or goods and services received but for which payment has not yet
been made.


                                            29
NOTE 4. ACCOUNTS RECEIVABLE, NET

Components of accounts receivable as of September 30, 2009 and 2008, were as follows:
                                                      2009                2008
  Intragovernmental:
     Accounts receivable                          $1,326,724             $987,111
  Public:
     Accounts receivable                                1,270                5,228
     Civil penalties assessed                       1,500,000           1,500,000
     Less allowance for doubtful collection        (1,500,000          (1,500,000
                                                            )                     )
     Public accounts receivable, net                    1,270                5,228
   Total accounts receivable, net                     $1,327,994               $992,339



Intragovernmental accounts receivable arise generally from the provision of goods and services to
other Federal agencies.

Accounts receivable from public sources consist of administrative receivables from employees or
suppliers and civil monetary penalties which have been billed or accrued and remain uncollected as
of year-end. The collection of civil monetary penalties is a custodial activity performed by FinCEN.
An allowance for doubtful accounts of $1,500,000 has been recognized to offset a civil monetary
penalty. The claim has been referred to Department of Justice for possible termination of collection
activity.




                                            30
    NOTE 5. PROPERTY AND EQUIPMENT, NET

     Property and equipment as of September 30, 2009 and 2008 consisted of the following:
                                                                             2009
                                          Useful                        Accumulated                    Net
                         Depreciatio        Life       Acquisition      Depreciation/                 Book
                               n
                            Method           (In          Cost          Amortization
                                           years)                                                     Value
Furniture, fixtures and
     equipment                S/L           5-7         $7,485,014       ($4,970,215)               $2,514,799
Construction in               N/A           N/A             92,483                    -                 92,483
progress
Internal-use software         S/L             5         13,072,470         (9,831,198)                3,241,272
Internal-use software in
     development              N/A           N/A            444,501                    -                 444,501
Leasehold improvements         S/L          3-5          1,269,767           (809,533)                  460,234
Total                                                      $22,364,235        ($15,610,946)         $6,753,289


                                                                                 2008
                                              Useful                          Accumulated              Net
                            Depreciatio        Life        Acquisition        Depreciation/           Book
                                n
                             Method            (In             Cost           Amortization
                                              years)                                                  Value
Furniture, fixtures and
     equipment                  S/L            5-7           $8,538,507        ($5,001,914)         $3,536,593
Construction in progress        N/A            N/A              617,220                   -            617,220
Internal-use software           S/L             5            11,726,769         (9,022,786)          2,703,983
Internal-use software in
     development                N/A            N/A              273,473                    -            273,473
Leasehold                       S/L            3-5              864,147            (644,586)            219,561
improvements
Total                                                      $22,020,116        ($14,669,286)         $7,350,830



    Construction-in-progress represents equipment that has been received but has not yet been
    constructed and placed into operation.

    Internal-use software in development represents actual (direct) costs and other indirect costs incurred
    for various software development projects not yet placed in service. Depreciation and amortization


                                                  31
expense recognized during the year ended September 30, 2009 and 2008 was $2,420,252 and
2,869,897, respectively.
NOTE 6. OTHER ASSETS

Other assets as of September 30, 2009 and 2008 consisted of the following:

                                                   2009                      2008
   Intragovernmental:
      Advances and prepayments                   $ 1,320,109              $3,518,468
   Total intragovernmental                         1,320,109               3,518,468
      Advances and prepayments                             -                  11,990
   Total Other Assets                            $ 1,320,109              $3,530,458


Intragovernmental advances and prepayments primarily consist of amounts paid to the
Department of the Treasury Working Capital Fund and the Department of Interior National
Business Center Franchise Fund Acquisition Services Directorate prior to FinCEN’s receipt of
goods and services.


NOTE 7. LIABILITIES NOT COVERED BY BUDGETARY RESOURCES

Liabilities not covered by budgetary resources represent amounts owed in excess of available
appropriated or other amounts. The liquidation of liabilities not covered by budgetary resources is
dependent on future congressional appropriations. The September 30, 2009 and 2008 liabilities not
covered by budgetary resources consisted of the following:

                                                                  2009                    2008
   Intragovernmental:
        Accrued workers’ compensation                               $6,686                  $8,509
        Unamortized rent abatement                               1,765,765               2,137,506
               Total intragovernmental                           1,772,451               2,146,015
   Public:
        Accrued annual leave                                     2,819,101               2,391,282
        Actuarial liability for workers’ compensation               23,885                  21,204
               Total public                                      2,842,986               2,412,486
   Total liabilities not covered by budgetary resources          4,615,437               4,558,501
   Total liabilities covered by budgetary resources or
        non-entity assets                                        6,251,386               6,932,111
                Total liabilities                              $10,866,823             $11,490,612




                                            32
NOTE 8. OTHER LIABILITIES

Other liabilities as of September 30, 2009 and 2008 consisted of the following:
                                                                    2009
                                             Non-Current           Current          Total
Intragovernmental:
   Due to Treasury General Fund                        $-                  $0             $0
   Due to other Federal agencies                                        1,573          1,573
   Accrued employee benefits                             -           395,546         395,546
   Accrued workers’ compensation                    3,142               3,544          6,686
   Unamortized rent abatement                   1,394,025            371,740       1,765,765
Total intragovernmental                         1,397,167            772,403       2,169,570

Public:
  Accrued payroll and employee benefits                  -        1,816,521        1,816,521
  Accrued annual leave                                   -        2,819,101        2,819,101
  Actuarial liability for workers’
     compensation                                  23,885                 -           23,885
Total public                                       23,885         4,635,622        4,659,507
Total other liabilities                        $1,421,052        $5,408,025       $6,829,077

                                                                   2008
                                             Non-Current          Current           Total
Intragovernmental:
   Due to Treasury General Fund                         $-               $0               $0
   Due to other Federal agencies                                      1,573            1,573
   Accrued employee benefits                            -           314,649          314,649
   Accrued workers’ compensation                    3,967             4,542            8,509
   Unamortized rent abatement                   1,765,766           371,740        2,137,506
Total intragovernmental                         1,769,733           692,504        2,462,237

Public:
  Accrued payroll and employee benefits                  -        1,474,720        1,474,720
  Accrued annual leave                                   -        2,391,282        2,391,282
  Actuarial liability for workers’
     compensation                                  21,204                 -           21,204
Total public                                       21,204         3,866,002        3,887,206
Total other liabilities                        $1,790,937        $4,558,506       $6,349,443

Amounts due to other agencies include payroll collections received for employees of those
agencies.




                                        33
NOTE 9. LEASES

FinCEN leases office space from the General Services Administration (GSA) under long-term
occupancy agreements. All of the office space occupied by FinCEN is leased by GSA from
commercial sources. GSA space is assigned to FinCEN based upon current needs. FinCEN is not
committed to continue to pay rent to GSA beyond the period occupied providing proper advance
notice to GSA is made. However, it is expected that FinCEN will continue to occupy and lease
office space from GSA in future years. The lease expense incurred related to GSA leases during
fiscal years 2009 and 2008 was $4,584,206 and $4,161,305 respectively.

As of September 30, 2009 future lease payments due under non-cancelable operating leases are as
follows:

                  2010                          $24,361
                  2011                           24,361
                  2012                           24,361
                  2013                           24,361
                  2014                           24,361
                  Thereafter                    330,903
                  Total future payments       $452,708




NOTE 10. COMMITMENTS AND CONTINGENCIES

FinCEN is party to various administrative proceedings, legal actions and claims. In the opinion of
management and legal counsel, no legal actions against FinCEN were both probable and estimable
as of September 30, 2009 and 2008, and no legal liabilities have been accrued in the accompanying
financial statements.

There were no pending or threatened litigation or unasserted claims as of September 30, 2009.




                                           34
  NOTE 11. INTRAGOVERNMENTAL COSTS AND EXCHANGE REVENUE

  Intragovernmental costs and exchange revenue for the years ended September 30, 2009 and
  2008 consisted of the following:
                                                                  2009              2008
  PROGRAM COSTS
  Financial system resistant to abuse by money launders,
  terrorists, etc.

     Intragovernmental costs                                         $18,724,719         $17,389,203
     Public costs                                                     14,330,761          16,360,686
        Total program costs                                           33,055,480          33,749,889
     Intragovernmental earned revenue                                   (55,039)            (22,171)
  Net program cost                                                    33,000,441          33,727,718

  Detection and deterrence of money laundering,
  terrorism financing and other illicit activity

     Intragovernmental costs                                          15,569,687          13,127,148
     Public costs                                                     11,916,092          12,350,717
        Total program costs                                           27,485,779          25,477,865
     Intragovernmental earned revenue                                  (364,014)           (174,069)
  Net program cost                                                    27,121,765          25,303,796

  Efficient management, safeguarding, and use of BSA
  information

     Intragovernmental costs                                          33,889,548          27,939,613
     Public costs                                                     25,937,000          26,287,071
        Total program costs                                           59,826,548           54,226,684
     Intragovernmental earned revenue                                  (396,590)          (1,934,751)
  Net program cost                                                    59,429,958          52,291,933



  Net cost of operations                                             119,552,164        $111,323,447



The criteria used for this classification are that the intragovernmental costs relate to the source of
goods and services purchased by the reporting entity, and not to the classification of related
revenue. For example, “exchange revenue with the public” is when the buyer of the goods or
services is a non-Federal entity. While with “intragovernmental costs,” the buyer and seller are


                                             35
both Federal entities. If a Federal entity purchases goods or services from another Federal entity
and sells them to the public, the exchange revenue would be classified as “with the public,” but
the related costs would be classified as “intragovernmental.” The purpose of this classification is
to enable the Federal government to provide consolidated financial statements, and not to match
public and intragovernmental revenue with costs that are incurred to produce public and
intragovernmental revenue.


NOTE 12. STATEMENT OF BUDGETARY RESOURCES

Apportionment Categories of Obligations Incurred
Obligations incurred as reported on the Statement of Budgetary Resources for the years ended
September 30, 2009 and 2008 consisted of the following:

                                                       2009                     2008
   Direct Obligations
      Category B                                   $86,540,979              $79,783,234
   Reimbursable Obligations
      Category B                                      7,149,178                4,369,943
   Total                                           $93,690,157              $84,153,177



Apportionment categories are determined in accordance with the guidance provided in OMB
Circular A-11, Preparation, Submission and Execution of the Budget. Category B represents
resources apportioned for other time periods other than calendar quarters; for activities, projects, or
objectives; or for any combination thereof. FinCEN only has Category B apportionments.

Adjustments to Beginning Balance of Budgetary Resources
Adjustments to budgetary resources available at the beginning of fiscal years 2009 and 2008
consisted of the following:

                                                     2009                      2008

   Recoveries of prior year obligations            $1,582,110                $2,427,034
   Cancellations of expired accounts                (103,067)               (1,329,157)

   Total                                           $1,479,043               $1,097,877



Differences Between the Statement of Budgetary Resources and the Budget of the United States
The fiscal year 2011 Budget of the United States Government (also known as the President’s Budget)
with actual numbers for fiscal year 2009, was not published at the time these financial statements



                                              36
were issued. The President’s Budget is expected to be published in February 2010.There were no
differences between the fiscal year 2008 Statement of Budgetary Resources and the actual fiscal year
2008 balances included in the fiscal year 2010 President’s Budget.

Undelivered Orders at the End of the Period
Undelivered orders as of September 30, 2009 and 2008 were $9,637,297 and $9,398,270,
respectively.


NOTE 13. STATEMENT OF CUSTODIAL ACTIVITY

FinCEN assesses civil monetary penalties related to enforcement of the Bank Secrecy Act as
authorized by 31 U.S.C. 5321(b). FinCEN collects this custodial revenue and distributes the full
amount of penalties collected to the Treasury General Fund. For the years ended September 30,
2009 and 2008 cash collections and distributions to Treasury were $16,308 and $12,532,
respectively. The custodial accrual adjustment totaling $0 and $2,821 at September 30, 2009
and 2008, respectively, reflects the change in accounts receivable FinCEN has which are offset
by the increase in custodial liability – amounts yet to be transferred of $0 in 2009 and a decrease
in custodial liability – amounts yet to be transferred of $2,821 in 2008.


NOTE 14. IMPUTED FINANCING SOURCES

FinCEN has imputed financing costs with the Office of Personnel Management for employee related
costs as well as with the Internal Revenue Service. Imputed financing sources from the Internal
Revenue Service relate to the collection and processing of Bank Secrecy Act Data. A summary of
the imputed financing costs by agency for the years ended September 30, 2009 and 2008 is as
follows:


                                                       2009                       2008

   Office of Personnel Management                    $2,144,252                 $1,862,984
   Internal Revenue Service                          25,653,220                 25,387,184
   Total Imputed Financing Sources                  $27,797,472                $27,250,168




                                            37
NOTE 15. RECONCILIATION OF NET COST OF OPERATIONS (PROPRIETARY)
  TO BUDGET

A reconciliation of net cost of operations to budget for the years ended
   September 30, 2009 and 2008 follows:
                                                                            For the Years Ended
                                                                               September 30
                                                                           2009             2008
Resources used to finance activities:
Budgetary resources obligated:
    Obligations incurred                                               $93,690,157      $84,153,177
    Less: Spending authority from offsetting collections and
       recoveries                                                      (8,659,541)       (6,658,540)
    Obligations net of offsetting collections and recoveries            85,030,616       77,494,637
    Less: Offsetting receipts                                             (16,165)             2,821
    Net obligations                                                     85,014,451       77,497,458
Other resources:
    Transfers in/out without reimbursement                               5,355,153          475,111
    Imputed financing from costs absorbed by others                     27,797,472       27,250,168
    Net other resources used to finance activities                      33,152,625       27,725,279

Total resources used to finance activities                             118,167,076      105,222,737

Resources used to finance items not part of the net cost of operations:
Change in budgetary resources obligated for goods, services
     and benefits ordered but not yet provided                            (710,488)          (954,584)
Resources that fund expenses recognized in prior periods                    369,605            383,516
Budgetary offsetting collections and receipts that do not affect
     net cost of operations
        Other                                                             5,338,988            477,932
Resources that finance the acquisition of assets                          1,983,340          1,080,894
Other resources or adjustments to net obligated resources that
     do not affect net cost of operations                               (5,355,153)          (475,111)
Total resources used to finance items not part of the net
cost of operations                                                        1,626,292           512,647

Total resources used to finance the net cost of operations             116,540,784      104,710,090


                                                                               (Continued)




                                             38
                                                           For the Years Ended September 30
                                                               2009               2008
Components of the net cost of operations that will not
require or generate resources in the current period:
Components requiring or generating resources in future
periods:
  Increase in annual leave liability                           $427,818            $181,406
  Other                                                           2,681               3,247
Total components of net cost of operations that will
require or generate resources in future periods                 430,499             184,653
Components not requiring or generating resources:
  Depreciation and amortization                               2,420,252           2,869,897
  Revaluation of assets or liabilities                          160,629           3,561,464
  Other                                                               0              (2,657)
Total components of net cost of operations that will not
require or generate resources                                 2,580,881           6,428,704


Total components of net cost of operations that will not
require or generate resources in the current period           3,011,380           6,613,357


Net cost of operations                                     $119,552,164        $111,323,447




                                          39
                          United States Department of the Treasury
                           Financial Crimes Enforcement Network
                            Required Supplementary Information
                      For the Years Ended September 30, 2009 and 2008

STATEMENT OF BUDGETARY RESOURCES

Budgetary resources disaggregated by major accounts for the years ended September 30, 2009 and
2008 consisted of the following:
                                                                           2009
                                                        Appropriated       Trust
                                                          Funds            Funds          Total
BUDGETARY RESOURCES
Unobligated balance, brought forward, October 1          $18,398,401       $61,593      $18,459,994
Recoveries of prior year unpaid obligations                1,537,236        44,874        1,582,110
Budget authority:
    Appropriations                                         91,465,000              -     91,465,000
Spending authority from offsetting collections:
    Earned
      Collected                                             5,788,303              -      5,788,303
      Change in receivables from Federal sources              339,613              -        339,613
    Change in unfilled customer orders
      Without advance from Federal sources                   949,515               -        949,515
      Anticipated for rest of year, without advances               0               -              0
    Subtotal                                               98,542,431              -     98,542,431
Non-expenditure transfer, net: anticipated and actual         250,000              -        250,000
Permanently not available                                   (103,067)              -      (103,067)
Total budgetary resources                               $118,625,001      $106,467     $118,731,468


STATUS OF BUDGETARY RESOURCES
Obligations incurred:
    Direct                                               $86,473,971       $67,008      $86,540,979
    Reimbursable                                           7,149,178             -        7,149,178
    Subtotal                                               93,623,149       67,008       93,690,157
Unobligated balance:
    Apportioned                                            20,318,493       39,459       20,357,952
Unobligated balance not available                           4,683,359            -        4,683,359
Total status of budgetary resources                     $118,625,001      $106,467     $118,731,468


                                                                        (Continued)




                                                40
                                                                                2009
                                                                Appropriated    Trust
                                                                  Funds         Funds         Total
CHANGE IN OBLIGATED BALANCES
Obligated balance, net:

     Unpaid obligations brought forward, October 1               $12,711,889    $88,035     $12,799,924
       Less: Uncollected customer payments from Federal
sources,             brought forward, October 1                   (3,189,760)                (3,189,760)
     Total unpaid obligated balance, net                           9,522,129     88,035       9,610,164

Obligations incurred, net                                         93,623,149     67,008      93,690,157

Less: Gross outlays                                              (90,312,690)   (26,707)    (90,339,397)
Less: Recoveries of prior year unpaid obligations, actual         (1,537,236)   (44,874)     (1,582,110)
Change in uncollected customer payments from Federal
     sources                                                      (1,289,128)                (1,289,128)
Obligated balance, net, end of period
     Unpaid obligations                                           14,485,113     83,462      14,568,575
     Less: Uncollected customer payments from Federal sources     (4,478,888)           -    (4,478,888)
Total, unpaid obligated balance, net, end of period              $10,006,225    $83,462     $10,089,687


NET OUTLAYS
     Gross outlays                                               $90,312,690    $26,707     $90,339,397
     Less: Offsetting collections                                 (5,788,303)           -    (5,788,303)
     Less: Distributed offsetting receipts                           (16,165)           -       (16,165)
Net outlays                                                      $84,508,222    $26,707     $84,534,929




                                                41
                            United States Department of the Treasury
                             Financial Crimes Enforcement Network
                              Required Supplementary Information
                        For the Years Ended September 30, 2009 and 2008
                                                                        2008
                                                        Appropriated    Trust
                                                          Funds         Funds          Total
BUDGETARY RESOURCES
Unobligated balance, brought forward, October 1           $11,157,150   $61,593      $11,218,743
Recoveries of prior year unpaid obligations                 2,427,034                  2,427,034
                                                                                -
Budget authority:
Appropriations                                             85,844,000           -     85,844,000
Spending authority from offsetting collections:
Earned
Collected                                                   1,736,169           -      1,736,169
Change in receivables from Federal sources                    869,932           -        869,932
Change in unfilled customer orders
without advance from Federal sources                        1,625,405           -      1,625,405

Subtotal                                                   90,075,506                 90,075,506
                                                                                -
Non-expenditure transfer, net: anticipated and actual        221,045            -        221,045
Permanently not available                                                       -    (1,329,157)
                                                          (1,329,157)
Total budgetary resources                               $102,551,578    $61,593     $102,613,171

STATUS OF BUDGETARY RESOURCES

Obligations incurred:

Direct                                                   $79,783,234           $0    $79,783,234
Reimbursable                                               4,369,943                   4,369,943
                                                                                -
Subtotal                                                   84,153,177                 84,153,177
                                                                                -
Unobligated balance:
 Apportioned                                               14,577,582    61,593       14,639,175
Unobligated balance not available                           3,820,819         -        3,820,819
Total status of budgetary resources                     $102,551,578    $61,593     $102,613,171




                                                42
                                                                               (Continued)


                                                                                 2008
                                                               Appropriated      Trust
                                                                  Funds          Funds         Total
CHANGE IN OBLIGATED BALANCES
Obligated balance, net
     Unpaid obligations brought forward, October 1              $16,135,044      $88,035     $16,223,079
     Less: Uncollected customer payments from Federal
       sources, brought forward, October 1                        (694,423)                    (694,423)
Total unpaid obligated balance, net                              15,440,621       88,035      15,528,656

Obligations, incurred, net                                       84,153,177              -    84,153,177

Less: Gross outlays                                             (85,149,298)             -   (85,149,298)
Less: Recoveries of prior year unpaid obligations, actual        (2,427,034)             -    (2,427,034)
Change in uncollected customer payments from Federal sources     (2,495,337)                  (2,495,337)
     Obligated balance, net, end of period
     Unpaid obligations                                          12,711,889       88,035      12,799,924
    Less: Uncollected customer payments from Federal sources     (3,189,760)             -    (3,189,760)
Total, unpaid obligated balance, net, end of period              $9,522,129      $88,035      $9,610,164


     NET OUTLAYS
     Gross outlays                                              $85,149,298             $0   $85,149,298
     Offsetting collections                                      (1,736,169)             -    (1,736,169)
Distributed offsetting receipts                                       2,821              -         2,821
Net outlays                                                     $83,415,950             $0   $83,415,950




                                               43
